1

QUESTIONS PRESENTED
1. NO RESPONSE BY ANY OF THE APPELLEES IN THIS CASE TO THE LAWSUIT
REGARDING THE ALLEGATIONS OF FRAUD, CIVIL AND CRIMINAL CONSPIRACY AND
THE FACT THAT THE APPELLEES, SELECT PORTFOLIO SERVICING AND U S BANK ARE
NOT THE ORIGINAL NOTE HOLDERS, CANNOT PRODUCE THE NOTE AND THAT HER
HOME SHOULD BE EXPUNGEMENT OF HER MORTGAGE DEBT IN WHICH THERE ARE
“DOCTORED” DOCUMENTS AND THE APPELLEES, HAVE REFUSED TO INTENTIONALLY
ANSWER BUT YET HAVE CONTINUED TO VIOLATE THE BANKRUPTCY CASE FILED IN
ACTIVE BANKRUPTCY AND HARASS HER IN THE LOWER COURTS AS WELL AS THE
HIGHER AND APPEALS COURTS. NO RESPONSE SHOULD EQUATE TO THE ENTIRE
MONETARY SANCTIONS PER PERSON OF $4,350,000.00.
2. DOES THE NO RESPONSE FROM THE APPELLEES CONSTITUTES THAT A DEFAULT
JUDGMENT HAS OCCURRED AND THE MONETARY SANCTIONS REQUESTED PER
PERSON AND PROFESSIONALLY IS DUE IMMEDIATELY AND PAYABLE TO THE
APPELLANT, BRIDGET PARSON, AKA BRIDGET BROWN PARSON. FAILURE TO RESPOND
TO THE LAWSUIT IN THE APPEALS COURT HAS SHOWWN THE LACK OF RESPECT FOR
FAIR AND EQUAL JUSTICE AND DISALLOWS FAIR AND EQUAL JUSTICE IN WHICH THE
MONETARY SANCTIONS ARE DUE THAT HAVE BEEN PENDING SINCE 2014 THAT IS SOME
SEVEN YEARS.
3. THE “BOGUS “ LETTER GIVEN TO THE APPELLANT, BRIDGET BROWN PARSON, AKA
BRIDGET PARSON IN BAD FAITH TO DECEIVE A BLACK AMERICAN AND FEMALE AND
TO DISALLOW FAIR ND EQUAL JUSTICE IN WHICH THE MANY ATTEMPTS TO STEAL THE
REAL PROPERTY IS STILL ON-GOING NOW IN WHICH APPELLANT, BRIDGET PARSON
HAS RESIDED INSIDE HER HOME FOR SOME THIRTY-TWO YEARS AND HER SPOUSE
DIED INSIDE OF THE HOME IN WHICH THE APPELLANT, BRIDGET BROWN PARSON IS A
WIDOW.
4. THE ACTIONS AND INACTIONS OF THE APPELLEES, SELECT PORTFOLIO SERVICING
AND U S BANK TO DISALLOW IN THE MANY LAWSUITS FILED AND PENDING THAT
THEY ARE SEPARATE AND NOT ASSOCIATED WITH THE LOAN SERVICER, SELECT
PORTFOLIO SERVICING DOES THAT CONSTITUTE FRAUD, MISREPRESENTATION AND
DISALLOW FAIR AND EQUAL JUSTIC;E? U S BANK, APPELLEE USES AND CONTINUES TO
USE THE FALSE DOCUMENTATION AND FACTS FROM THE LOAN SERVICER, SELECT
PORTFOLIO SERVICER BUT CONTINUES TO ON SOME LAWSUIT DOCUMENTS IN THE
ORIGINAL PETITION TO “INTENTIONALLY” NOT LIST THE LOAN SERVICER, SELECT
PORTFOLIO SERVIXCING WHO HAS MANY INACCURATE ACCOUNTING THAT HAS BEEN
MENTIONED SINCE 2014. THE “BOGUS” LETTER MENTIONED ABOVE CONTINUES TO
STATE THAT NO FEES ARE DUE AND THAT NOTHING SHOULD BE WORRIED ABOUT
FROM THE APPELLANT, BRIDGET BROWN PARSON BUT THEY CONTINUE TO THROUGH
DECEPTTION, FRAUD, MISREPRESENTATION TO DISALLOW FAIR AND EQUAL JUSTICE.
5. CAN THE APPELLEE, U S BANK MAKE FALSE STATEMENTS IN THE 2014 LETTER THAT
IS “BOGUS” AND STATE THAT EVERYTHING IS O.K. AND NOTHING IS OWED

J

MONETARILY AND THEN CHOSE TO FILE MANY LAWSUITS AND MAKE FALSE
STATEMENTS BEFORE THE MANY JUDGES.?
6. CAN THE APPELLEE, U S BANK, SELECT PORTFOLIO SERVICING NOT APPEAR IN THE
BAN KRUPTCY PROCEEDING AND YET LATER STATE THAT THEY ARE OWED MONEY
SINCE 2014?
7. THE AGREED ORDER IN BANKRUPTCY COURT WAS SIGNED IN 2015 BY THE CHIEF
JUSTICE BARBARA HOUSER WHEN THE APPELLEES, U S BANK AND SELECT PORTFOLIO
SERVICING FAILRED TO APPEAR IN COURT IN 2016 IN WHICH A FALSE CLAIM WAS
MADE THAT IS INCONSISTENT WITH THE “BOGUS” LETTER MENTIONED ABOVE THQAT
STATES THAT NO MONEY IS OWED AND THAT THE ACCOUNT IS IN GOOD STA1NDING.
8. DO THE APPELLANT, BRIDGET BROWN PARSON BELIEVE THE “BOGUS” LETTER THT
HAS BEEN PROVEN TO BE FRAQUDULENT IN WHICH THE APPELLEES, U S BANK AND
SELECT PORTFOLIO SERVICING HAVE BROUGHT THE SAME IDENTICAL CLAIM TO
MANY COURTS SEEKING TO CONTINUE TO DISCRIMINATE AGAINST A BLACK
AMERICAN AND FEMALE.?
9. CAN THIS COURT MAKE A RULING ON THE “BOGUS” LETTER SIGNED IN DECEMBER
2014 AND DISALLOW THE CONTINUED INCONSISTENT TACTICS OF APPEARINJG IN BD
FAITH AND STATING TO THE MANY JUDGES AND JUSTICES THAT THE APPELLANT,
BRIDGET BROWN PARSON IS IN ARREARAGES IN HER HOME MORTGAGE.
10. CAN THIS COURT MAKE A RULING THAT THE APPELLEES, U S BANK, SELECT
PORTFOLIO SERVICING ARE NOT THE ORIGINAL NOTE HOLDERS CANNOT PRODUCE
THE NOTE IN WHCH THERE HAVE BEEN MANY “DOCTORED” DOCUMENTS FILED OVER
AND OVER AGAIN IN WHICH THE ABUSE OF POWER OF THE APPELLEE, JUDGE HARLIN
HALE HAVE JOINED IN WITH THE APPELLEES, U S BANK AND HAVE IGNORED THE
AGREED ORDER SIGNED BY THE CHIEF JUSTICE BARBARA HOUSER WHO HAS SINCE
RETIRED AND THE APPELLEE, HARLIN HALE HAVE BEEN SELECTED AS THE NEW
CHIEF JUSTICE IN THE BANKRUPTCY COURT ALTHOUGH THE FILED JUDICIAL
MISCONDUCT AND PENDING MOTJIONS FOR EXPUNGEMENT OF MORTGAGE DEBT IS
STILL PENDING.
11. CAN THIS COURT MAKE A RULING TO ALLOW THE PENDING MOTONS IN LIMINE
REGARDING HER MORTGAGE DEBT TO BE GRANTED IN WHICH THE APPELLEES FAILED
TO FILE A RESPONSIVE PLEA AND HAVE THEREFORE COMMITTED DEFAULT JUDGMENT
IN WHICH THERE IS A PER PERSON MONETARY JUDGMENT IN THE AMOUNT OF
$4,350,000.00
12. CAN THE JUDGE, HARLIN HALE STATE TO THE TYPING COURT REPORTER, A YOUNG
BLACK FEMALE TO STOP THAT TYPING AND TO DISALLOW FAIR AND EQUAL JUSTICE
BY REFUSING TO ALLOW A FAIR AND EQUAL JUSTICE HEARING REGARDING THE
OBJECTIONS MAKE BY THE APPELLANT, BRIDGET PARSON?
13, HAVE THE APPELLEES, U S BANK AND SELECT PORTFOLIO SERVICING COMMITTED
AGGRAVATED PERJURY BY STATING THAT THE .NOTICE OF DEFAULT WAS SENT OUT TO
THE APPELLANT, BRIDGET PARSON WHEN ACTUALLY N O NOTICE WAS EVER SENT TO

HER REGARDING HER MORTGAGE? THIS FALSE STATEMENT CONTINUES TO BE
PLACED WITHITN MANY COURT DOCUMENTS.
14. HAVE THE JUDGE HARLIN HALE JUDICIAL MISCONDUCT OF A “CD” BE USED IN
WHICH THE REQUEST WAS MADE BY THE APPELLANT, BRIDGET BROWN PARSON THAT
HAS BEEN PENDING SINCE 2018?
15. CAN THE JUDGE HARLIN HALE TELEPHONE THE POLICE AND/OR SECURITY TO THE
COURT ROOM WHEN HE DOES NOT LILKE THE OBJECTIONS MADE BY THE APPELLANT,
BRIDGET BROWN PARSON, IN AN IMPROMPTU HEARING WITHOUT ANY NOTICE NORA
RIGHT TO ILLEGALLY DETAIN HER?
16. IS THE JUDGE HARLIN HALE AIDING AND ABETTING THE APPELLEES, U S BANK
AND SELECT PORTFOLIO SERVICING WHEN HE REFUSES TO ALLOW FAIR AND EQUAL
JUSTICE AND TO CONTINUE WITH AN IMPROMPTU HEARING “AFTER” THE POLICE AND/
OR SECURITY HAS BEEN CALLED SO THAT THE APPELLANT, BRIDGET BROWN PARSON
WILL NOT BE INSIDE THE COURT ROOM TO ALLOW FAIR AND EQUAL JUSTICE.
17. IS IT ILLEGAL FOR THE APPELLEES, U S BANK TO USE FAKE DOCUMENTS WITHIN A
COURT SETTING THAT IS OBJECTED TO BY THE APPELLANT, BRIDGET PARSON WHO
HAS STATED THAT NO “REQUIRED” ORIGINAL DOCUMENTS HAVE BEEN SUBMITTED BY
THE APPELLEES, U S BANK AND SELECT PORTFOLIO SERVICING AND THE FACT THAT
THE CONTINUED “DOCTORED DOCUMENTS CONTINUES TO DISALLOW FAIR AND
EQUAL JUSTIC.
\

18. HAVE THE APPELLEES, U S BANK AND SELECT PORTFOLIO SERVICING VIOLATED
THE BANKRUPTCY STAY BY CONTINUING TO FILE THE SAME DOCUMENTS WITHIN THE
MANY COURTS SEEKING FRIENDSHIP RATHER THAN JUSTICE.?
19. WITHOUT THERE BEING A COURT REPORTER RECORD IN THE LOWER COURT, THE
DISTRICT COURT IN 2014 THAT LED TO THE DEFAULT JUDGMENT ALTHOUGH AN
ANSWER WAS FILED BE A VIOLATION OF THE BANKRUPTCY STAY AS WELL AS FAIR
AND EQUAL JUSTICE THAT THE DECISION WAS ARBATRARILY AND CAPRICIOUSLY
DONE?.
20. CAN THERE BE A FAIR TRIAL WITHOUT A REPEATED REQUEST FOR A COURT
REPORTER RECORD?
21. WITHOUT A COURT REPORTER RECORD DOES THAT MAKE THE APPELLEES, U S
BANK SELECT PORTFOLIO HARLIN HALE, JUDGE, ETAL IN VIOLATION OF
OBSTRUCTION OF JUSTICE REGARDING THE MORTGAGE HOME BELONGING TO THE
APPELLANT, BRIDGET BROWN PARSON, AKA BRIDGET PARSON.?

LIST OF PARTIES
ALL PARTIES DO NOT APPEAR IN THE CAPTION OF THE CASE ON THE COVER
PAGE. AL LIST OF ALL PARTIES TO THE PROCEEDING IN THE COURT WHOSE
JUDGMENT IS THE SUBJECT OF THIS PETITION IS AS FOLLOWS:
COUNSEL

APPELLANT-PLANITFF
BRIDGET BROWN PARSON

BRIDGETBROWN PARSON

AKA

AKA

BRIDGET PARSON

BRIDGET PARSON
508 GRADY LANE
CEDAR HILL, TEXAS 75104
214 962-9508

APPELLEES-DEFENDANTS
SELECT PORTFOLIO SERVICING

COUNSEL
MACKIE WOLF LAW FIRM
14160 DALLAS PARKWAY
DALLAS TEXAS 75254
LORI LONG-HAMBY LEAD ATTORNEY
STEPHEN WU, JESSICA HOLT,,
CJHELSEA SCHNEIDER, ATTORNEY’S

U S BANK

MACKIE WOLF LAW FIRM
14160 DALLAS PARKWAY

v

DALLAS, TEXAS 75254
STEPHEN WU
JESSICA HOLT

UNKNOWN NO RESPONSE TO LAWSUIT

CHELSEA SCHNEIDER
HARLIN HALE, JUDGE

MICHAEL CONNER
1415 LOUISIANA STREET
. HOUSTON, TEXAS 77002
, KENNETH COFFIN,
1100 COMMERCE STREET

DALLAS TEXAS 75242
KENNETH HORD
1100 COMMERCE STREET
DALLAS TEXAS 75242
BANKRUPTCY COURT

UNKNOWN, NO RESPONSE TO LAWSUIT

FACTS OF THE CASE

APPELLANT. BRIDGET BROWN PARSON, AKA BRIDGET PARSON
WHO FILES IN GOOD FAITH HER WRIT OF CERTIORARI., PETITION
FOR A WRIT OF CERTIORARI IS NEEDED DUE TO THE FACT THAT
HER CASE NO. 19-10277 WAS DISMISSED WITHOUT EVER HEARING
THE CASE ON THE MERITS. APPELLANT, BRIDGET PARSON REQUEST
FOR ORAL ARGUMENTS WERE NOT MET AND THE DISMISSAL WAS
DONE BY THREE JUDGES AND LATER A MOTION FOR CLARIFICATION
WAS FILED BY THE APPELLANT, THAT WAS DENIED. APPELLANT,
LATER FILED AN ENBANC MOTION FOR RECONSIDERATION OF THE
DENIED CLARIFICATION, AND LATER A MOTION FOR ENBANC
RECONSIDERATION OF THE DENIED MOTION FOR CLARIFICATION
THAT WAS TIMELY FILED. APPELLANT, REQUESTED AN ENBANC
RECONSIDERATION DUE TO THE FACT THAT THE CASE WAS DENIED
A PUBLICATION THAT INVOLVES A GOVERNMENT EMPLOYEE ALONG
WITH A BANK THAT INVOLVES MOST TAX PAYING CITIZENS IN THE
UNITED STATES THAT SHOULD BE PUBLISHED. APPELLANT,
REQUESTED ORAL ARGUMENTS, AND FILED AN AFFIDAVIT OF
INABILITY TO PAY COST THAT VIOLATES HER CIVL RIGHTS AND A
RIGHT TO FILE AN APPEAL THAT HAS FALLEN UPON DEAF EARS
THAT WAS UNOPPOSED. CONSEQUENTLY, A DEFAULT JUDGMENT
OCCURRED IN THE AMOUNT OF $4,350,000.00 APPELLEE, U S BANK,
SELECT PORTFOLIO SERVICING, JUDGE HARLIN HALE, MACKIE WOLF
LAW FIRM, STEPHEN WU, JESSICA HOLT, CHELSEA SCHNEIDER
NEVER FILED A “REQUIRED” RESPONSIVE BRIEF TO THE LAWSUIT
THAT CONSTITUES A DEFAULT JUDGMENT IN WHICH MONETARY
SANCTIONS WAS REQUESTED BY THE APPELLANT, BRIDGET BROWN
PARSON, AKA BRIDGET PARSON, IN THE AMOUNT OF $4,350,000.00
APPELLANT, BRIDGET BROWN PARSON, AKA BRIDGET PARSON HAS
FILED IN GOOD FAITH HER A TIMELY SUFFICIENT APPELLANT BRIEF.
APPELLANT, DO REQUEST A REVIEW OF THIS CASE THAT IS STILL
UNHEARD AND NEEDS TO BE HEARD INVOLVING APPELLEES, U S
BANK, SELECT PORTFOLIO, JUDGE HARLIN HALE, STEPHEN WU,
JESSICA HOLT, CHELSEA SCHNEIDER, MACKIE WOLF LAW FIRM, AND
THE BANKRUPTCY COURT. APPELLEES, SELECT PORTFOLIO

SERVICING, U S BANK, JUDGE HARLIN HALE, MACKIE WOLF LAW
FIRM, STEPHEN WU, JESSICA HOLT, CHELSEA SCHNEIDER,
BANKRUPTCY COURT, THROUGH AN ABUSE OF POWER HAVE ALL
GANGED UP ON THE APPELLANT AND ARE TRYING TO STEAL HER
HOMESTEAD PROPERTY. APPELLEES, U S BANK, SELECT PORTFOLIO
SERVICING, ARE NOT THE ORIGINAL NOTE HOLDERS, CANNOT
PRODUCE THE NOTE AND YET HAVE APPEARED “AGAIN” IN BAD
FAITH TO STEAL THE HOMESTEAD PROPERTY BELONGING TO THE
APPPELLANT, BRIDGET BROWN PARSON, AKA BRIDGET PARSON,
APPELLANT, BRIDGET PARSON HAVE BEEN RESIDING AT HER
PROPERTY LOCATED AT 508 GRADY LANE CEDAR HILL, TEXAS FOR
SOME THIRTY PLUS YEARS. APPELLANT, BRIDGET BROWN PARSON,
AKA BRIDGET PARSON, FILED A STILL PENDING JUDICIAL
MISCONDUCT COMPLAINT AGAINST THE APPELLEE, JUDGE HARLIN
HALE, A VISITING JUDGE, FOR THE CHIEF JUDGE BARBARA HOUSER,
WHO HAS NOT RESPONDED AND THE CASE HAS BEEN “PENDING” FOR
SOME SIX YEARS. APPELLEE, HARLIN HALE HAVE RECEIVED A
HIGHER JOB RECENTLY AS THE “NOW” CHIEF JUSTICE FOR THE
BANKRUPTCY COURT. THE FAILURE OF THE JURSTICE DEPARTMENT
TO FOLLOW UP ON THE COMPLAINT MADE BY THE APPELLANT,
BRIDGET PARSON, SHOWS A LACK OF RESPECT FOR PRO SE
LITIGANTS AS WELL AS FOR BLACK AMERICANS AND WOMEN. THE
LACK OF CONCERN AND TO MAKE A REPORT TO DETER OTHERS
FROM ENGAGING IN THE SAME UNETHICAL BEHAVIOR THAT
VIOLATES THE BOND AND OATH OF OFFICE TAKEN FOR THE JOB AS
A JUDGE. APPELLEE , HARLIN HALE WILL NOW HAVE EVEN A MORE
INCREASING DESIRE TO DISALLOW FAIR AND EQUAL JUSTICE
WITHIN A COURT ROOM SETTING. APPELLANT, BRIDGET PARSON,
HAVE FILED A JUDICIAL MISCONDUCT BUT IT HAVE TO BE HEARD IN
ORDER TO DETER JUDICIAL MISCONDUCT. APPELLANT, BRIDGET
PARSON HAVE BEEN DENIED AN AFFIDAVIT OF INDIGENCY WHEN
SHE HAD BEEN GRANTED IN OTHER CASES WITH THE IDENTICAL
SAME DOCUMENTS. THEREFORE, THE APPELLEE, HARLIN HALE WILL
NOT ONLY STATE “STOP THAT TYPING” TO A COURT REPORTER BUT
WILL CONTINUE TO “STOP” APPELLANT CASE FROM BEING HEARD.
THE APPELLEE, U S BANK CONTINUE TO “REQUEST” THE APPELLEE,
HARLIN HALE IN THE ABSENCE OF THE CHIEF JUSTICE, BARBARA

HOUSER IN ORDER TO GAIN FRIENDSHIP AND TO DISALLOW FAIR
AND EQUAL JUSTICE. THIS HAVE OCCURRED TO THE APPELLANT,
BRIDGET PARSON OVER AND OVER AGAIN IN MANY COURTS IN
WHICH THERE IS MISCONDUCT FROM THE JUDICIAL BENCH THAT
DISALLOWS THE APPELLANT TO ALONE BE ABLE TO STOP THE
REOCCURING MISBEHAVIOR AND VIOLATIONS OF CIVIL AND
CRIMINAL CONSPIRACY TO STEAL THE REAL PROPERTY BELONGING
TO THE APPELLANT, BRIDGET PARSON. APPELLANT, BRIDGET
PARSON DOES SEEK PROTECTION FROM THE COURT TO STOP THE
SPREADING OF JUDICIAL MISCONDUCT. APPELLANT, BRIDGET
PARSON, HAVE REQUESTED THE MONETARY SANCTIONS IN THE
AMOUNT OF $4,350,000.00 TO DETER SUCH MISBEHAVIOR AND TO
DETER OTHERS FROM ENGAGING IN THIS BEHAVIOR. THE MAYBE
NEW OR PRECEDENT CASE MENTIONED IN THIS CASE SHOWS THAT
THERE IS A LONG HISTORY OF THE APPELLEE, U S BANK, SELECT
PORTFOLIO SERVICING TO STEAL THE REAL PROPERTY FROM THE
APPELLANT, BRIDGET PARSON AND TO TAKE KICK-BACKS THAT
CONTINUES TO HARM THE HOMEOWNERSHIP OF BLACK AMERICANS
AND TO DISALLOW THE ONGOING MISTREATMENT OF THE BLACK
AMERICANS THROUGH CIVIL CONSPIRACY AND CRIMINAL
CONSPIRACY. THERE IS A RAMPANT NEW SIGNS ON JUST ABOUT
EVERY STREET CORNER IN THE BLACK AMERICANS
NEIGHBORHOODS THAT ARE SEEKING TO BUY THE HOMES FROM
THE BLACK AMERICANS. THE TREND MENTIONED CONTINUES TO
INCREASE MOST RECENTLY WITHIN THE LAST SIXTEEN YEARS IN
THE DALLAS TEXAS AREA. APPELLANT, BRIDGET PARSON, HAS
BEEN DISCRIMINATED AGAINST ALSO AS A HOMEOWNER IN WHICH
THE APPELLEE, U S BANK HAVE ENGAGED IN MISCONDUCT BY
GIVING A LETTER DATED DECEMBER 23, 2014 TO THE APPELLANT,
BRIDGET PARSON “AFTER” MAKING A TELEPHONE CALL TO HER
STATING THAT EVERYTHING IS OK AND THAT NO MONEY IS STILL
BEING OWED AND/OR BEING PURSUED AND THAT SHE OWES
NOTHING AND THAT HER HOME WOULD BE REMOVED FROM THE
UPCOMING FORECLOSURE SALE IN JANUARY 2015. HOWEVER, THIS
SAME LETTER DATED DECEMBER 23, 2014 STATES THAT
IMMEDIATELY AFTER THE CHRISTMAS HOLIDAYS IN 2014 THAT THE
APPELLEE, U S BANK, SELECT PORTFOLIO SERVICING WOULD SEEK

ILLEGAL TACTICS TO SEND LETTERS OF FRAUD TO BLACK
AMERICANS AND PEOPLE OF COLOR TO DISALLOW FAIR HOUSING
AND TO DISCRIMINATE AGAINST THEM BECAUSE OF THE COLOR OF
THEIR SKIN. APPELLEE, US BANK HAVE IN MANY CASES TRIED TO
DISSASOCIATE THEMSELVES FROM THE OTHER PARTY, SELECT
PORTFOLIO SERVICING. THE APPELLEE, U S BANK HAVE ALSO TRIED
TO DISSASOCIATE THEMSELVES FROM THE LAW FIRM MACKIE WOLF
LAW FIRM IN WHICH MANY ATTORNEYS AND LAW FIRMS HAVE
BEEN USED TO DISALLOW FAIR AND EQUAL JUSTICE AND TO
REORGANIZE WITHOUT FILING A BANKRUPTCY. THE APPELLEE, U S
BANK WOULD NOT BECOME BANKRUPT DUE TO THE FACT THAT
THEY ARE TRYING TO STEAL THE REAL PROPERTY BELONGING TO
THE APPELLANT, BRIDGET PARSON BUT MANY OTHER BLACK
AMERICAN HOMEOWNERS AS WELL. APPELLEES, US BANK, SELECT
PORTFOLIO SERVICING HAVE MAINTAINED INACCURATE
ACCOUNTING AND HAVE CONTINUED TO DO SO IN WHICH THERE
ARE FALSE AFFIDAVITS FILED BY THEM IN THIS CASE. THE LEAD
ATTORNEY, LORI LONG-HAMBY WAS DISBARRED IAS STATED IN THE
FIFTH COURT OF APPEALS IN DALLAS TEXAS IN WHICH THERE ALSO
IS A PENDING CASE INVOLVING THE SAME PARTIES AND ISSUES, IF
THE LEAD ATTORNEY IS DISBARRED FOR MISCONDUCT IN THE FIFTH
COURT OF APPEALS THEN THAT MAKES THE ENTIRE APPELLEE, LAW
FIRMS BE ALSO CORRUPT AND GUILTY OF CIVIL AND CRIMINAL
CONSPIRACY. THE APPELLEE, AFFIDAVITS FILED BY LORI LONGHAMBY SHOULD BE DISMISED WITH PREJUDICE IN THIS CASE. THE
PENDING MONETARY SANCTIONS REQUESTED IN THE AMOUNT OF
$4,350,000.00 IN WHICH THE APPELLEE, U S BANK HAVE REFUSED TO
FILE AN ANSWER IN THIS CASE AND THE LAST COURT DISMISSED
THE CASE AND/OR DID NOT HEAR THE CASE ON THE MERITS. THE
APPELLEE, U S BANK LAST COURT DID NOT EVEN ALLOW THE
PENDING ORAL ARGUMENTS AND NEVER CONTACTED THE
APPELLANT, BRIDGET PARSON TO DO SO. THE MONETARY
SANCTIONS REQUESTED BY THE APPELLANT, BRIDGET PARSON, IN
THE AMOUNT OF $4,350,000.00 PER PERSON BOTH PROFESSIONALLY
AND INDIVIDUALLY WAS NEVER RESPONDED TO IN WHICH A
DEFAULT IS APPROPRIATE TO SEND A MESSAGE TO DETER ALL
LITIGANTS AND APPELLEES TO HAVE TO PAY THE MONETARY

SANCTIONS THAT HAVE NEVER BEEN PAID BY THE APPELLEES, U S
BANK WHO ALSO NEVER RESPONDED TO COUNTER-CLAIMS IN THE
MANY COURTS AND JUDGES IN THIS LAWSUIT. THE MEMORANDUM,
OPINION, AND ORDER FILED BY THE FEDERAL JUDGE LINDSEY HAVE
THAT THE
STATED IN THE OPINION IN CASE NUMBER
NEW CASE FILED BY THE APPELLEE, U S BANK SHOULD BE
REMANDED TO THE LOWER COURT IN DALLAS TEXAS COUNTY TO
FILE A FORECLOSURE PROCEEDING. THE APPELLEES, U S BANK
DECIDED TO FILE THE EXACT SAME IDENTICAL DOCUMENT TO THE
SAME U S FEDERAL COURT IN WHICH ANOTHER U S DISTRICT JUDGE
GODBEY WHO DECIDED TO REVERSE WHAT HE PREVIOUSLY SAID
ALONG WITH THE SAME U S MAGISTRATE JUDGE RUTHERFORD WHO
ALSO DECIDED TO REVERSE THE PREVIOUS RULLINGS AND
DECISIONS AND TO ENGAGE IN A NEW CASE FILING THAT DOES NOT
HAVE EVEN A SIMPLE “REQUIRED” CIVIL COVER SHEET. APPELLANT,
BRIDGET PARSON, HAVE EXPERIENCED THE RAMPANT TAMPERING
WITH THE RECORDS IN THE MANY CASES FILED THAT FAVORS KICKBACKS IN WHICH THERE HAVE BEEN A SENSE OF URGENCY TO
DISALLOW FAIR AND EQUAL JUSTICE. THE PLEA TO THE
JURISDICTION HAVE LED TO THE APPELLEES CONTEMPT OF COURT
AND HAVE SHOWN THE LACK OF RESPECT FOR FOLLOWING THE
KNOWN ORDERS OF THE COURT. THE LOWER DISTRICT COURT HAVE
SHOWN THAT THE APPELLEE, U S BANK LEAD ATTORNEY LORI
LONG-HAMBY HAVE SHOWN THAT THERE ARE MANY “DOCTORED”
DOCUMENTS AND FALSE DOCUMENTS AND FACTS THAT DISALLOWS
FAIR AND EQUAL JUSTICE. APPELEES, U S BANK, SELECT PORTFOLIO
SERVICING, HAVE FILED MANY DIFFERENT SIMILAR VERSIONS OF
THE “DOCTORED” DOCUMENTS IN WHICH THEY ARE NOT THE
ORIGINAL NOTE HOLDER CANNOT PRODUCE THE NOTE AND THEY
CONTINUES TO FILE IN THE SAME COURTS BUT HAVE ALSO BEGAN
FILING IN THE WRONG JURISDICTION. APPELLANT, BRIDGET
PARSON, SHOWS THAT THE APPELLEES U S BANK SELECT
PORTFOLIO SERVICING AND THE MANY OTHERS WHO ARE
PARTICIPANTS IN THIS SCHEME TO DEFRAUD THE BLACK
AMERICANS AND WOMEN AND VULNERABLE WIDOWS SUCH AS THE
APPELLANT, BRIDGET PARSON IS UNFAIR AND DISALLOWS FAIR AND
EQUAL JUSTICE. THE DOUBLE JEOPARDY AND SAME “DOCTORED”

SANCTIONS THAT HAVE NEVER BEEN PAID BY THE APPELLEES, U S
BANK WHO ALSO NEVER RESPONDED TO COUNTER-CLAIMS IN THE
MANY COURTS AND JUDGES IN THIS LAWSUIT. THE MEMORANDUM,
OPINION, AND ORDER FILED BY THE FEDERAL JUDGE LINDSEY HAVE
THAT THE
STATED IN THE OPINION IN CASE NUMBER
NEW CASE FILED BY THE APPELLEE, U S BANK SHOULD BE
REMANDED TO THE LOWER COURT IN DALLAS TEXAS COUNTY TO
FILE A FORECLOSURE PROCEEDING. THE APPELLEES, U S BANK
DECIDED TO FILE THE EXACT SAME IDENTICAL DOCUMENT TO THE
SAME U S FEDERAL COURT IN WHICH ANOTHER U S DISTRICT JUDGE
GODBEY WHO DECIDED TO REVERSE WHAT HE PREVIOUSLY SAID
ALONG WITH THE SAME U S MAGISTRATE JUDGE RUTHERFORD WHO
ALSO DECIDED TO REVERSE THE PREVIOUS RULL1NGS AND
DECISIONS AND TO ENGAGE IN A NEW CASE FILING THAT DOES NOT
HAVE EVEN A SIMPLE “REQUIRED” CIVIL COVER SHEET. APPELLANT,
BRIDGET PARSON, HAVE EXPERIENCED THE RAMPANT TAMPERING
WITH THE RECORDS IN THE MANY CASES FILED THAT FAVORS KICKBACKS IN WHICH THERE HAVE BEEN A SENSE OF URGENCY TO
DISALLOW FAIR AND EQUAL JUSTICE. THE PLEA TO THE
JURISDICTION HAVE LED TO THE APPELLEES CONTEMPT OF COURT
AND HAVE SHOWN THE LACK OF RESPECT FOR FOLLOWING THE
KNOWN ORDERS OF THE COURT. THE LOWER DISTRICT COURT HAVE
SHOWN THAT THE APPELLEE, U S BANK LEAD ATTORNEY LORI
LONG-HAMBY HAVE SHOWN THAT THERE ARE MANY “DOCTORED”
DOCUMENTS AND FALSE DOCUMENTS AND FACTS THAT DISALLOWS
FAIR AND EQUAL JUSTICE. APPELEES, U S BANK, SELECT PORTFOLIO
SERVICING, HAVE FILED MANY DIFFERENT SIMILAR VERSIONS OF
THE “DOCTORED” DOCUMENTS IN WHICH THEY ARE NOT THE
ORIGINAL NOTE HOLDER CANNOT PRODUCE THE NOTE AND THEY
CONTINUES TO FILE IN THE SAME COURTS BUT HAVE ALSO BEGAN
FILING IN THE WRONG JURISDICTION. APPELLANT, BRIDGET
PARSON, SHOWS THAT THE APPELLEES U S BANK SELECT
PORTFOLIO SERVICING AND THE MANY OTHERS WHO ARE
PARTICIPANTS IN THIS SCHEME TO DEFRAUD THE BLACK
AMERICANS AND WOMEN AND VULNERABLE WIDOWS SUCH AS THE
APPELLANT, BRIDGET PARSON IS UNFAIR AND DISALLOWS FAIR AND
EQUAL JUSTICE. THE DOUBLE JEOPARDY AND SAME “DOCTORED”

DOCUMENTS WITH AN INTENT TO COMMIT FRAUD AND DECEIVE THE
APPELLANT, BRIDGET PARSON IN THE LETTER WRITTEN BY THE
APPELLEE, MACKIE WOLF LAW FIRM IN WHICH THE UNBELIEF OF
THE APPELLANT, BRIDGET PARSON HAVE LED TO THIS LAWSUIT IN
WHICH THE APPELLEES, U S BANK, SELECT PORTFOLIO SERVICING,
MACKIE WOLF LAW FIRM, HARLIN HALE, VISITING JUDGE, ETAL
SHOULD BE MADE TO PAY THE MONETARY SANCTIONS IN THE
AMOUNT OF $4,350,000.00 THE PRECEDENT CASE HAVE BEEN
OCCURRING OVER AND OVER AGAIN IN WHICH THERE ARE MANY
HOMEOWNERS WHO ARE BEING FACED WITH THE SAME IDENTICAL
REOCCURRING FRAUDULENT ACTS IN WHICH A MORTGAGE
COMPANY AND BANK SHOULD NOT BE ABLE TO JUST SAY FALSE
STATEMENTS TO A HOMEOWNER IN DISTRESS AND DURESS OF NOT
ONLY BANKRUPTCY, BUT BEING A RECENT WIDOW IN DECEMBER 23,
2014, AND THEN HAVING TO RAISE KIDS IN AN ENVIRONMENT WHEN
THEY WILL NOT TRUST THE BANKS AND LAW FIRMS AND
ATTORNEYS WHO ARE HERE TO SERVE AND NOT TO TAKE
ADVANTAGE OF THE WEAK AND DISCRIMINATE AGAINST THE
BLACK AMERICAN AND FEMALE IN THIS CASE. APPELLEE, U S BANK
HAVE GIVEN “INTENTIONAL” FALSE STATEMENTS OVER THE
TELEPHONE AND THEN LATER IN WRITING THAT THEY SHOULD BE
MADE ACCOUNTABLE OF THE KNOWN LETTER DATED DECEMBER 23,
2021. AND PAY THE MONETARY SANCTIONS IN THE AMOUNT OF
$4,350,000.00 THE APPELLEES, U S BANK, SELECT PORTFOLIO
SERVICING, MACKIE WOLF LAW FIRM AND THEIR ATTORNEYS,
STEPHEN WU, JESSICA HOLT, AND CHELSEA SCHNEIDER HAVE
CONTINUED TO NOT ANSWER THE LAWSUIT AND ALSO ARE MADE
TO BE ACCOUNTABLE FOR THEIR ACTIONS AND INACTIONS AND ARE
IN DEFAULT OF THE MONETARY SANCTIONS OF THE AMOUNT OF
$4,350,00.00 THE APPELLEES, HAVE PUT THE SAME LYING TACTICS
OVER THE TELEPHONE ONTO PAPER AS WELL AS IN THE MAIL AND
HAVE AIDED AND ABETTED THE APPELLEES, U S BANK, SELECT
PORTFOLIO SERVICING. THE APPELLEE, HARLIN HALE HAD A ROLE
TO PLAY IN WHICH THERE ARE PEOPLE IN HIGH PLACES TO HELP
DEFRAUD THE HOMEOWNERS, ESPECIALLY THOSE WHO ARE BLACK
AMERICANS AND PEOPLE OF COLOR. LACK OF RESPECT FOR
APPELLANT, WHO IS A HOMEOWNER AND A RECENT THE

PROMOTION TO CHIEF JUSTICE SHOWS THAT THE JUDICIAL
MISCONDUCT CASE NUMBER PENDING WANT BE HEARD UNLESS
THIS COURT INTERVENES. THE PROMOTION HAS SHOWN THE
APPELLANT, BRIDGET PARSON THAT THE PENDING JUDICIAL
MISCONDUCT WILL NOT BE HEARD ON THE MERITS. THE CD HAS
NEVER BEEN HEARD FROM THE COURTREPORTER BEING TOLD TO
“STOP THAT TYPING” DURING ANOTHER IMPROMPTU HEARING IN
WHICH THE APPELLANT, WAS LELT OF THE INSIDE COURTROOM
AND SHOWN AND HAPPEN AND THAT THE PENDING JUDICIAL
MISCONDUCT WILL NOT DETER OTHER JUDGES TO HAS FA E. . THE
APPELLANT, BRIDGET BROWN PARSON, AKA BRIDGET PARSON,
HAVE FILED IN GOOD FAITH BUT THE APPEALS COURT AND THE
JUDICIAL COMPLAINT COMMITTEE THAT IS ALSO LOCATED AT THE
SAME LOCATION IN THE UNITED STATES COURT OF APPEALS FOR
THE FIFTH CIRCUIT IN NEW ORLEANS LOUISIANA. THE APPELLEE,
JUDGE HARLIN HALE IS ALSO FROM THE GREAT STATE OF NEW
ORLEANS, LOUISIANA THAT MAY HAVE SOMETHING TO DO WITH
THE DELAY OF JUSTICE. APPELLANT, BRIDGET BROWN PARSON, AKA
BRIDGET PARSON, FILES IN GOOD FAITH HER PETITION FOR WRIT OF
CERITORARI AND DO REQUEST THAT HER CASE IS HEARD FOR THE
FIRST TIME ON THE MERITS IN WHICH A CLARIFICATION MOTION
WAS DENIED AND THE REASON GIVEN FOR NOT HEARING THE CASE
DOES NOT MATCH THE “UNOPPOSED” EVIDENCE IN THIS CASE. THE
CIIVL RIGHTS OF THE APPELLANT, BRIDGET BROWN PARSON, AKA
BRIDGET PARSON ARE VIOLATED DUE TO DISCRIMINATION OF
RACIAL AND GENDER, FAIR HOUSING, AGGREVATED PERJURY, CIVIL
AND CRIMINAL CONSPIRACY, HARASSMENT, INTIMIDATION. THE
COURT HAVE ALSO REFUSED TO ALLOW THE APPELLANT, TO
PROCEED ON THE AFFIDAVIT OF INABILITY TO PAY COST AND THE
ORAL ARGUMENTS REQUEST HAVE BEEN “IGNORED” THAT WERE
BOTH TIMELY MADE TO THE COURT. THE APPEARANCE OF TWO SETS
OF RULES BY THE COURT CONTINUES TO PREJUDICE THE
APPELLANT, BRIDGET BROWN PARSON, AKA BRIDGET PARSON
BEFORE THE COURT AND THE FAILURE OF THE COURT TO HEAR THE
CASE AT ALL AND TO HEAR THE CASE ON THE MERITS OF THE CASE
DISALLOW FAIR AND EQUAL JUSTICE THAT SHOWS BIAS. ALL STEPS
REQUIRED TO FILE AN APPEAL IN THE COURT WERE MET.

APPELLANT, FILED A TIMELY AND SUFFICIENT APPEAL APPELLANT’S
SUFFICIENT BRIEF WAS ACCEPTED BY THE COURT. THERE WAS NO
“REQUIRED” OPPOSED APPELLEE BRIEF AND/OR RESPONSES FILED IN
THIS CASE THAT CONSTITUTES A DEFAULT JUDGEMENT IN THE
AMOUNT OF $4,350,000.00 APPELLANT, BRIDGET BROWN PARSON,
AKA BRIDGET PARSON, REQUESTED MONETARY SANCTIONS IN THE
AMOUNT OF $4,350,000.00 IN THE UNOPPOSED LAWSUIT. THEREFORE,
THE ACTIONS AND INACTIONS OF THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT LOCATED IN NEW ORLEANS
LOUISIANA ARE PROCEDURALLY INEFFECTIVE. THE ISSUES
UNDISPUTABLE ISSUES ARE:
l. APPELLANT, BRIDGET BROWN PARSON, REQUESTED ORAL
ARGUMENTS IN THIS APPEAL THAT WOULD REQUIRE THE
COURT TO INTERPRET THE LIMITTIONS ON AN APPELLANT,
PLAINTIFF, RECOVERY IN WHICH EXPUNGEMENT OF
MORTGAGE DEBT IS REQUESTED ALONG WITH THE MONETARY
SANCTIONS OF $4,350,000.00 TO PREVENT OTHERS FROM
CONTINUING TO BREAK THE LAW AND NOT FOLLOW THE
RULES OF COURT AND TO WITHOUT CONSEQUENCES CONTINUE
TO BREAK THE LAW OVER AND OVER AGAIN WITHOUT ANY
WORRY OF THERE BEING ANY CONSEQUENCES THAT SHOWS A
BLATANT DISREGARD FOR EQUAL TREATMENT AN VIOLATIONS
OF A PERSONS CIVIL RIGHTS AND LIBERTIES WHILE ENTERING
A COURT SYSTEM THAT IS SUPPOSED TO BE EQUAL
TREATMENT FOR ALL. THE DETERMINATION OF THE “THIN
LINE” BETWEEN A CIVIL CASE THAT IS ALSO A CRIMINAL CASE
IN WHICH STATEMENTS ARE MADE VERBALLY IN THE
COURTROOM OF “STOP THAT TYPING” AND EVEN AFTER THE
INCIDENT INVOLVING THE APPELLEE, JUDGE HARLIN HALE
WHO LEFT THE BENCH AND BEGAIN STANDING OVER THE
COURT REPORTER A YOUNG BLACK FEMALE SHOWS NOT ONLY
INTIMIDATION BUT APPEARED TO BE POSSIBLE AGGREVATED
ASSAULT IF THE YOUNG BLACK FEMALE DID NOT STOP TYPING
INSIDE THE COURTROOM. THE APPELLEE, HARLIN HALE WHILE
STANDING IN THE BLACK ROBE FOR JUSTICE FOR ALL HAD JUST
COMMITTED AN OFFENSE THAT IS IRREPREHENSIBLE AND

THAT SHOWS THAT FULL IMMUNITY DOES NOT COVER
ACTIONS OF SUCH IRRATIONAL BEHAVIOR. THIS BEHAVIOR
VIOLATES THE CIVIL RIGHTS OF THE APPELLANT, BRIDGET
BROWN PARSON, AKA BRIDGET PARSON WHO HAS FILED THE
APPEAL AND FILED A “PENDING” JUDICIAL MISCONDUCT IN
THIS CASE THAT HAS FALLEN UPON DEAF EARS. APPELLANT,
BRIDGET BROWN PARSON, AKA BRIDGET PARSON, STUDENTS
WHO SHE TAUGHT WHO ARE MOSTLY CHILDREN OF COLOR
WOULD THINK THAT “OF COURSE” NOTHING IS GOING TO BE
DONE IN THIS MATTER BECAUSE OF THE COLOR OF ONES SKIN.
THE CIVIL RIGHTS VIOLATIONS NEED TO HEARD IN THIS
MATTER. APPELLANT, BRIDGET BROWN PARSON, AKA BRIDGET
PARSON DOES NOT BELIEVE THAT THE SAME OUTCOME WOULD
EXIST AND WOULD HAVE OCCURRED IF THE APPELLANT,
WOULD HAVE BEEN ANOTHER COLOR OF SKIN. THE
APPELLANT, BRIDGET BROWN PARSON, AKA BRIDGET PARSON
DID REPORT THE INCIDENT TO THE UNITED STATES
ATTORNEYS OFFICE LOCATED INSIDE OF THE SAME BUILDING
AS THE BANKRUPTCY COURT WHERE APPELLEE, JUDGE HARLIN
HALE WORKED AND WHO SETS THE STANDARD OF BEHAVIOR
FOR THE OTHER ATTORNEYS INSIDE OF THE COURTROOM.
APPELLANT, BRIDGET BROWN PARSON, AKA BRIDGET PARSON,
HAS EVIDENCE OF THE INCIDENT THAT HAS NOT BEEN HEARD
IN THE INTERESTS OF JUSTICE, EQUITY, DUE PROCESS OF LAW,
PROCEDURAL DUE PROCESS OF LAW, AND THE PREVENTION OF
MANIFEST INJUSTICE. THE APPELLANT, BRIDGET BROWN
PARSON, AKA BRIDGET PARSON, LATER FILED THE “REQUIRED”
JUDICIAL MISCONDUCT COMPLAINT AGAINST THE VISITING
JUDGE HARLIN HALE WHO WAS “TEMPORARILY” REPLACING
THE CHIEF JUSTICE JUDGE BARBARA HOUSER WHO HAD
TEMPORARILY LEFT TO ASSIST THE CITIZENS IN PUERTO RICO
STORM RELATED ISSUES. APPELLEES, SELECT PORTFOLIO
SERVICING, U S BANK ATTORNEY STEPHEN WU REQUESTED
THE VISITING JUDGE HARLIN HALE THAT WAS OBJECTED TO BY
THE APPELLANT, BRIDGET BROWN PARSON, AKA BRIDGET
PARSON. IT IS OBVIOUS WHY THE REQUEST WAS MADE IN
ORDER TO OBSTRUCT JUSTICE AND TO CONTINUE TO TRY AN D

STEAL THE REAL PROPERTY AND HOMESTEAD PROPERTY
BELONGING TO THE APPELLANT, BRIDGET BROWN PARSON,
AKA BRIDGET PARSON. THERE IS EVIDENCE IN THIS CASE OF
ONE SIDED JUSTICE IN WHICH THE APPEALS COURT HAVE
REFUSED TO HEAR THE CASE ON THE MERITS IN WHICH THERE
IS “UNOPPOSED” EVIDENCE IN THIS CASE TO SUPPORT THAT
THIS CASE NEEDS TO BE F1EARD. THIS CASE IS LIKE NO OTHER
CASE AND WOULD SET A PRECEDENT OF “INTENTIONAL” BAD
FAITH BEHAVIOR AND WHEN APPEALED TO THE HIGHER COURT
THE COURT TURNS A DEAF EAR. THERE IS A CONTINUATION OF
MAIL FRAUD IN THIS CASE IN WHICH THE APPELLEE, MACKIE
WOLF LAW FIRM HAVE HAND DELIVERED TO THE APPELLANT,
BRIDGET BROWN PARSON, AFTER WHE DROVE SOME FORTY
FIVE MILES TO PICK UP HER REQUESTED LETTER VERIFYING
WHAT SHE HAD BEEN TOLD OVER THE TELEPHONE BY THE
APPELLEE, MACKIE WOLF LAW FIRM. APPELLEE, MACKIE WOLF
LAW FIRM STATED IN DECEMBER 14, 2014 THAT APPELLANT,
CASE WAS IN GOOD STANDING AND CLOSED BECAUSE SHE DID
NOT OWE ANY MORE MONEY AND THAT HER ADDRESS WOULD
BE REMOVED FROM THE UPCOMING FORECLOSURE DATE IN
JANUARY 2015. THIS DID NOT HAPPEN AND APPELLANT,
BRIDGET BROWN PARSON, AKA BRIDGET PARSON DECIDED TO
DRIVE TO THE LOCATION OF THE MACKIE WOLF LAW FIRM IN
DALLAS, TEXAS AND TO RETRIEVE SOMETHING IN WRITING
STATING WHAT SHE HAD JUST BEEN TOLD OVER THE
TELEPHONE PRIOR TO HER GOING TO THE MACKIE WOLF LAW
OFFICE. APPELLEE, MACKIE WOLF LAW FIRM WHO
REPRESENTED AT THE TIME, U S BANK, SELECT PORTFOLIO
SERVICING HAVE CREATED A PATTERN OF STEALING THE
HOMESTEAD PROPERTIES OF PEOPLE OF COLOR AND WAS
ATTEMPTING TO DO THE SAME THING TO THE APPELLANT,
BRIDGET BROWN PARSON, AKA BRIDGET PARSON. APPELLANT,
BROWN PARSON, AKA BRIDGET PARSON, HOME WAS NEVER
REMOVED FROM THE “UP COMING” FORECLOSURE DATE IN
JANUARY OF 2015 THAT LED TO THE FILING OF THE
BANKRUPTCY CASE TO SAVE HER HOME. THE APPELLEES, U S
BANK, SELECT PORTFOLIO SERVICING HAVE CONTINUED TO

FILE MISREPRESENTATION, FRAUD, IN MULTIFARIOUS COURTS
BY STATING FALSELY THAT THEY ARE THE ORIGINAL NOTE
HOLDERS, CANNOT PRODUCE THE NOTE AND WITHOUT AN
IMMEDIATE COURT INTERVENTION MANIFEST INJUSTICE WILL
CONTINUE TO OCCUR. APPELLEES, U S BANK, SELECT
PORTFOLIO SERVICING, MACKIE WOLF LAW FIRM, JUDGE
HARLIN HALE AND THE MANY ATTORNEYS HAVE CHOSEN TO
SEEK HARASSMENT, INTIMIDATION, CIVIL AND CRIMINAL
CONSPIRACY, AGGREVATED PERJURY OVER JUSTICE. THE
CONVERSATIONS PRIOR TO THE APPELLATE, BRIDGET BROWN
PARSON, AKA BRIDGET PARSON, REQUEST FOR THE WRITTEN
“AFTER” THE VERBAL LIE WAS STILL HANDED OVER TO HER
WITH A SMILE IN WHICH THE SIGNATURE ON THE DOCUMENT
FROM DECEMBER 14, 2014 IS NOT WRITTEN WITH A FIRST AND
LAST NAME THAT IS “INTENTIONALLY” ILLEGIBLE. THIS IS
FRAUD AND THE CONTINUATION TO IGNORE WHAT HAPPENED
IS A TRAVESTY TO JUSTICE IN WHICH EQUAL JUSTICE DOES
NOT EXIST AND THAT THERE ARE TWO SETS OF LAWS WITHIN
THE COURT SYSTEM. THIS COURT DESERVES TO GET TO THE
BOTTOM OF THE UNTRUTHS AND MISREPRESENTATIONS AND
THE FACT THAT THE NO RESPONSE IS A SIGN OF GUILT.
SILENCE IS GUILT IN THIS CASE. THE APPELLEE DID NOT FILE A
“RESPONSIVE” BRIEF IN THIS MATTER. APPELLANT, BRIDGET
BROWN PARSON, AKA BRIDGET PARSON, ASSUMED THAT
MAYBE THE APPELLEES, WOULD SHOW FOR THE ORAL
ARGUMENTS THAT WERE REQUESTED IN THIS MATTER THAT
HAVE BEEN DENIED AND NOT EVEN LISTED AS TO WHY NO
ORAL ARGUMENTS WERE SCHEDULED AND/OR ALLOWED TO BE
DONE IN THIS CASE. TWO BANKRUPTCIES HAVE BEEN FILED
AND THE “BOGUS” LETTER DATED DECEMBER 2014 CONTINUES
TO HARASS, DISTORT THE TRUTH, SHOWS FRAUD, CIVIL AND
CRIMINAL CONSPIRACY THAT HAS CONTINUED TO TO OVER
LOAD THE FIRTH CIRCUIT COURT IN DALLAS TEXAS, FEDERAL,
BANKRUPTCY, DISTRICT, AND NOW THE COURT OF APPEALS
FIFTH CIRCUIT IN NEW ORLEANS, LOUISIANA, ETAL. ALL
PERSONS ARE SUPPOSED TO ABIDE BY THE SAME RULES OF
COURT AND NOT MAKE UP NEW RULES THAT IS NOT EQUAL

JUSTICE. THERE SHOULD BE NO BIG FS AND LITTLE U’S IN THE
COURT SYSTEM. FRIENDSHIP THAT RESULTS IN ILLEGAL KICKBACKS NOR BEING INDIGENT IS NOT SUPPOSED TO OVERLOOK
EQUAL JUSTICE FOR ALL. THE TRUTH SHOULD BE
INVESTIGATED WITHOUT REGARD TO RACIAL AND ECONOMIC
DISPARITY DUE TO ONES FINANCIAL INABILITY TO PAY FOR
COURT COST. THAT IS WHAT HAS HAPPENED IN THIS CASE AND
MANY OTHER PEOPLE OF COLOR. THIS WILL CONTINUE TO
OCCUR AND REOCCUR OVER AND OVER AGAIN UNLESS THIS
COURT INTERVENES AND PREVENTS MANIFEST INJUSTICE.
THERE ARE SIGNS ON EVERY STREET CORNER IN DALLAS
TEXAS SAYING “WE BUY HOUSES” THAT ARE NOT ALSO IN
PREDOMINATELY WEALTHY AREAS AND/OR PEOPLE OF COLOR
OR BLACK AMERICANS. IT APPEARS THAT THE COURT SYSTEM
ARE PREYING ON THE POOR, BLACK AMERICANS, WIDOWS, AND
PEOPLE OF COLOR WHO USUALLY HAVE NO WHERE ELSE TO
TURN AND ARE PLACED ON THE CURBS OF NEIGHBORHOODS
DUE TO FALSE FORECLOSURE AND END OF ENTERING
HOMELESSNESS. WHEN ATTORNEYS ARE COURT APPOINTED
THEY TEND TO JOIN IN WITH THE OTHER SIDE AND THEN GANG
UP ON THEIR OWN CLIENT FOR KICK-BACKS AND GREED AND
OF COURSE TO STEAL HOMES AND MAKE THREATENING PHONE
CALLS AND SEND “FALSE” LETTERS WITH NO REGARD FOR THE
TRUTH TO SCARE THE RACIALLY DEPRIVED AND ADD MORE
FEAR IN WHICH YOU CANNOT EVEN ENJOY YOUR AMERICAN
DREAM WHICH IS YOUR HOME.
2. THERE ARE STILL PENDING APPEALED MOTIONS AND MOTIONS
IN LIMINE THAT INVOLVE THE APPELLANT, BRIDGET BROWN
PARSON, AKA BRIDGET PARSON EXPUNGEMENT OF MORTGAGE
DEBT TO HER HOMESTEAD PROPERTY LOCATED AT 508 GRADY
LANE CEDAR HILL, TEXAS 75104.
3. APPELLEES, U S BANK AND SELECT PORTFOLOIO SERVICING,
JUDGE HARLIN HALE, MACKIE WOLF LAW FIRM, ATTORNEYS
HAVE ON DECEMBER 14, 2014 BY “ROBBERY BY
CONVERSATION, HAVE ENGAGED IN ILLEGAL CONVERSATION,
FRAUD, WITH THE INTENT TO STEAL THE HOMESTEAD
PROPERTY BELONGING TO THE APPELLANT, BRIDGET BROWN

JUSTICE. THERE SHOULD BE NO BIG I’S AND LITTLE U’S IN THE
COURT SYSTEM. FRIENDSHIP THAT RESULTS IN ILLEGAL KICKBACKS NOR BEING INDIGENT IS NOT SUPPOSED TO OVERLOOK
EQUAL JUSTICE FOR ALL. THE TRUTH SHOULD BE
INVESTIGATED WITHOUT REGARD TO RACIAL AND ECONOMIC
DISPARITY DUE TO ONES FINANCIAL INABILITY TO PAY FOR
COURT COST. THAT IS WHAT HAS HAPPENED IN THIS CASE AND
MANY OTHER PEOPLE OF COLOR. THIS WILL CONTINUE TO
OCCUR AND REOCCUR OVER AND OVER AGAIN UNLESS THIS
COURT INTERVENES AND PREVENTS MANIFEST INJUSTICE.
THERE ARE SIGNS ON EVERY STREET CORNER IN DALLAS
TEXAS SAYING “WE BUY HOUSES” THAT ARE NOT ALSO IN
PREDOMINATELY WEALTHY AREAS AND/OR PEOPLE OF COLOR
OR BLACK AMERICANS. IT APPEARS THAT THE COURT SYSTEM
ARE PREYING ON THE POOR, BLACK AMERICANS, WIDOWS, AND
PEOPLE OF COLOR WHO USUALLY HAVE NO WHERE ELSE TO
TURN AND ARE PLACED ON THE CURBS OF NEIGHBORHOODS
DUE TO FALSE FORECLOSURE AND END OF ENTERING
HOMELESSNESS. WHEN ATTORNEYS ARE COURT APPOINTED
THEY TEND TO JOIN IN WITH THE OTHER SIDE AND THEN GANG
UP ON THEIR OWN CLIENT FOR KICK-BACKS AND GREED AND
OF COURSE TO STEAL HOMES AND MAKE THREATENING PHONE
CALLS AND SEND “FALSE” LETTERS WITH NO REGARD FOR THE
TRUTH TO SCARE THE RACIALLY DEPRIVED AND ADD MORE
FEAR IN WHICH YOU CANNOT EVEN ENJOY YOUR AMERICAN
DREAM WHICH IS YOUR HOME.
2. THERE ARE STILL PENDING APPEALED MOTIONS AND MOTIONS
IN LIMINE THAT INVOLVE THE APPELLANT, BRIDGET BROWN
PARSON, AKA BRIDGET PARSON EXPUNGEMENT OF MORTGAGE
DEBT TO HER HOMESTEAD PROPERTY LOCATED AT 508 GRADY
LANE CEDAR HILL, TEXAS 75104.
3. APPELLEES, U S BANK AND SELECT PORTFOLOIO SERVICING,
JUDGE HARLIN HALE, MACKIE WOLF LAW FIRM, ATTORNEYS
HAVE ON DECEMBER 14, 2014 BY “ROBBERY BY
CONVERSATION, HAVE ENGAGED IN ILLEGAL CONVERSATION,
FRAUD, WITH THE INTENT TO STEAL THE HOMESTEAD
PROPERTY BELONGING TO THE APPELLANT, BRIDGET BROWN

PARSON, AND TO ILLEGALLY STATE THAT THEY ARE THE
ORIGINAL NOTE HOLDER, CANNOT PRODUCE THE NOTE, AND
HAVE “INTENTIONALLY” MISREPRESENTED WHO THEY ARE
FOR PURPOSES OF HARASSMENT, THEFT, FRAUD, IN WHICH THE
APPELLEE, JUDGE HARLIN HALE, THROUGH AN ABUSE OF
POWER HAVE ENGAGED IN ILLEGAL EX PARTE
COMMUNICATIONS IN WHICH HE ACTED AS THE JUDGE, JURY,
AND THE PROSECUTING ATTORNEY SIMULTANEOUSLY THAT
VIOLATES DUE PROCESS OF LAW, EQUITY, PROCEDURAL DUE
PROCESS OF LAW, AND SHOWS CIVIL AND CRIMINAL
CONSPIRACY, AND VIOLATIONS OF CIVIL RIGHTS AND
LIBERTIES OF THE APPELLANT, BRIDGET BROWN PARSON, AKA
BRIDGET PARSON WHO EVEN “AFTER” THE CHIEF JUDGE
BARBARA HOUSER SIGNED AN AGREED ORDER JN 2016 THAT
STATED THAT $14,000,00 HAD BEEN PAID ON TIME IN A
BANKRUPTCY CASE. THE FINAL ACCOUNTING SHOWED THAT
APPELLEES, U S BANK, SELECT PORTFOLIO SERVICING HAD
RECEIVED FROM THE YEARS OF 2015 UNTIL 2018 $14,000.00
APPELLANT, BRIDGET BROWN PARSON, AKA BRIDGET PARSON
WAS SUBJECTED TO THE TEMPORARY AMNESIA AS WELL AS
THE BLATANT DISREGARD FOR PROCEDURAL DUE PROCESS OF
LAW THAT WITHOUT AN IMMEDIATE COURT INTERVENTION
MANIFEST INJUSTICE WILL CONTINUE TO OCCUR. APPELLEES,
U S BANK, SELECT PORTFOLIO SERVICING, JUDGE HARLIN
HALE, MACKIE WOLF LAW FIRM, ATTORNEYS STEPHEN WU,
JESSICA HOLT, CHELSEA SCHNEIDER, HAVE CONTINUED TO
COMMIT FRAUD ON THE APPELLANT, BRIDGET BROWN
PARSON, AKA BRIDGET PARSON, BANKRUPTCY COURT, IN THE
ABSENCE OF THE CHIEF JUDGE BARBARA HOUSER, AND ALL
BLACK AMERICANS AND PEOPLE OF COLOR WITH MORTGAGES
WHO BELIEVE THAT “YOUR WORD IS YOUR BOND” HAVE BEEN
TARGETED AND LIED TO AND “AGAIN” COMMITTED
AGGEVATED PERJURY. APPELLEES, HAVE FILED FALSE
FIGURES WITH FALSE AMOUNTS OF MONEY OWED IN
ASTRONOMICAL FIGURES THAT ARE STATE BARRED IN WHICH
THE FIGURES KEEP CHANGED AND DON’T “INTENTIONALLY”
ADD UP THAT HAVE BEEN PRESENTED IT TO THE BANKRUPTCY

COURT AND HAVE THROUGH EX PARTE COMMUNICATIONS
WITH THE VISITING JUDGE HARLIN HALE ILLEGAL KICK BACKS
HAVE OCCURRED. APPELLATE, BRIDGET BROWN PARSON,
HAVE BEEN UNABLE TO FIND A FAIR AND IMPARTIAL JUDGE IN
THIS MATTER IN WHICH THE APPELLEES, JUDGE HARLIN HALE
LEFT THE BENCH IN HIS BLACK ROBE, BEGAIN STANDING OVER
THE COURT REPORTER AND BEGAN HOLLERING “STOP THAT
TYPING.” THE APPELLEE, JUDGE HARLIN HALE THEN TOLD THE
COURT POLICE AND/OR SECURITY TO PUT THE APPELLANT,
BRIDGET BROWN PARSON, AKA BRIDGET PARSON, OUT OF THE
COURT ROOM IN AN IMPROMPTU HEARING AND LATER
CONTINUED WITH AN ILLEGAL HEARING THAT RESULTED IN
CONTINUED EX PARTE COMMUNICATIONS WITH STILL TO THIS
DAY “UNKNOWN” CONCLUSIONS. CONSEQUENTLY, A
COMPLETE RECORD WAS NEVER MADE IN THIS CASE DUE TO
THE FACT THAT A CRIME WAS COMMITTED IN WHICH THE
APPELLEE, JUDGE HARLIN HALE ORDERED THE CSO OFFICERS
TO STAND NEXT TO THE APPELLANT, BRIDGET BROWN PARSON,
AKA BRIDGET PARSON TO “INTIMIDATE” HER SO THAT SHE
COULD NOT SPEAK FREELY AT AN IMPROMPTU HEARING
WITHIN AN “ILLEGALL” COURTROOM PROCEDURE. APPELLEES,
JUDGE HARLIN HALE ABUSED HIS POWER IN THE ABSENCE OF
THE CHIEF JUDGE BARBARA HOUSER AND HAD NO FEAR OF
THE CONSEQUENCES OF A JUDICIAL COMPLAINT AND APPEALS
FILED THAT HAVE “OF COURSE” FALLEN UPON DEAF EARS.
APPELLEE, JUDGE HARLIN HALE IS NOT IMMUNE IN THIS CASE
IN WHICH HE HAS VIOLATED AND COMMITTED FRAUD, CIVIL
AND CRIMINAL CONSPIRACY IN WHICH THERE IS A PENDING
JUDICIAL COMPLAINT FILED. THE JUDICIAL MISCONDUCT
COMPLAINT HAVE NEVER BEEN HEARD. THE PRE-FILING
PREREQUISITES WERE FILED PRIOR TO FILING THE LAWSUIT IN
WHICH THE “STRIKING” OF THE RECORD OF DOCUMENTS FILED
BY HER WERE MADE ILLEGALLY DUE TO THE FACT THAT HE
DID NOT WANT THE APPELLANT, BRIDGET BROWN PARSON,
AKA BRIDGET PARSON TO FILE AN APPEAL AND TO EXERCISE
HER RIGHT TO DO SO. APPELLEE JUDGE HARLIN HALE HAS
TAMPERED WITH THE RECORD ON APPEAL AND DID NOT

ALLOW THE SOME 200 DOCUMENTS FILED BY THE APPELLANT,
BRIDGET BROWN PARSON, AKA BRIDGET PARSON TO BE SENT
UP TO THE FEDERAL COURT IN DALLAS TEXAS AND/OR THE
UNITED STATES DISTRICT COURT IN ORDER FOR HIM TO
PREVENT FAIR AND EQUAL JUSTICE AND TO HIDE THE
EVIDENCE IN THIS CASE. APPELLANT, BRIDGET PARSON, AKA,
BRIDGET PARSON FILED FOR A COMPLETE CLERK AND
REPORTERS RECORD IN THIS CASE AND/OR APPEALED IN THIS
MATTER THAT NEEDS TO BE HEARD DUE TO THE UNOPPOSED
EVIDENCE AND FOREGOING STATEMENTS MADE IN
4. THE “BOGUS”LETTER DATED DECEMBER 23,2014 AS WELL AS
THE MOTION TO “PRODUCE THE NOTE” AND “MOTION FOR
EXPUNGEMENT OF MORTGAGE DEBT HAVE NOT BEEN HEARD
AND IS STILL PENDING WITH THE OTHER MOTIONS IN LIMINE.
THIS IS STILL MISSING FROM THE COMPLETE RECORD SENT BY
THE BANKRUPTCY COURT TO THE UNITED STATES DISTRICT
COURT IN THIS LAW SUIT THAT WAS REQUESTED BY THE
APPELLANT, BRIDGET BROWN PARSON, AKA BRIDGET PARSON.
5. THE DEFAULT JUDMENT IN THE AMOUNT OF $4,350,000.00
SHOULD BE GRANTED IN THE UNDISPUTED UNOPPPOSED NON
RESPONSE BY THE APPELLEES, SELECT PORTFOLIO SERVICING,
U S BANK, JUDGE HARLIN HALE, MACKIE WOLF LAW FIRM,
ATTORNEYS STEPHEN WU, JESSICA HOLT, AND CHELSEA
SCHNEIDER, BANKRUPTCY COURT.
6. THERE IS AN ABUSE OF POWER IN WHICH THERE WERE
MOTIONS FOR RECUSALS NEVER HEARD AND NEVER SET FOR A
HEARING AGAINST THE APPELLEE, JUDGE HARLIN HALE IN
WHICH NOW EVEN THE JUDICIAL MISCONDUCT IS “PENDING”
AFTER A FEW YEARS. APPELLEE, JUDGE HARLIN HALE HAVE
CONDUCTED ILLEGAL IMPROMPTU HEARINGS IN WHICH THE
APPELLANT, BRIDGET BROWN PARSON, AKA BRIDGET PARSON,
WAS “THROWN” OUT OF THE COURTROOM WHEN SHE MADE A
VERBAL OBJECTION SO THAT THE “UNFAIR” ONE SIDED
ILLEGAL EX PARTE COMMUNICATIONS COULD CONTINUE IN
THE ABSENCE OF THE APPELLANT, BRIDGET BROWN PARSON,
AKA BRIDGET PARSON.

7. APPELLANT, BRIDGET BROWN PARSON, AKA BRIDGET PARSON
DID MAKE AN OFFICIAL IN PERSON COMPLAINT WITH THE
ATTORNEY GENERALS OFFICE IN THE SAME BUILDING
LOCATED AT 600 COMMERCE STREET DALLAS TEXAS.
8. APPELLEE, JUDGE HARLIN HALE MADE TESTIMONY WITHIN THE
IMPROMPTU HEARING THAT MAKES HIM A WITNESS IN THIS
CASE. APPELLEE, JUDGE HARLIN HALE MADE TESTIMONY FOR
THE APPELLEES, U S BANK, SELECT PORTFOLIO, MACKIE WOLF
LAW FIRM, AT THE SAME TIME THAT HE “ORDERED” THE
COURT REPORTER TO “STOP THAT TYPING.” HE ALSO
DECLARED HIMSELF NOT GUILTY OF ANY CRIME OF THE FILED
RECUSALS WITHOUT HAVING A LEGAL “HEARING” IN AN
ATTEMPT TO INTIMIDATE, HARASS, DISTORT THE TRUTH,
THREATEN, TORTURE, AND TO DISALLOW FAIR AND EQUAL
JUSTICE FOR THE APPELLANT, BRIDGET BROWN PARSON, AKA
BRIDGET PARSON.
9. APPELLEE, JUDGE HARLIN HALE BEGAN “GANGING UP” ON THE
APPELLANT, BRIDGET BROWN PARSON, AKA BRIDGET PARSON,
WHILE ACTING AS THE JUDGE, PROSECUTING ATTORNEY, AND
JURY ALL SIMULTANEOUSLY THAT IS NOT ONLY ILLEGAL AND
BIASES AND PE JUDICIAL WITH AN ABUSE OF POWER, BUT, THIS
BEHAVIOR DISALLOWS A FAIR AND IMPARTIAL HEARING.
APPELLEE, JUDGE HARLIN HALE ALLOWED THE ATTORNEY OF
RECORD TO WITHDRAW WITHOUT A NOTICE AND/OR A LAWFUL
HEARING THAT VIOLATES DUE PROCESS OF LAW AND SHOWS
THAT THE APPELLE, MAKES DECISIONS WITHOUT FOLLOWING
THE LAWS AND GUIDELINES OF THE UNITED STATES
CONSTITUTION THAT ALSO VIOLATES HIS OATH OF OFFICE AS A
JUDGE.
10. APPELLANT, BRIDGET BROWN PARSON, AKA BRIDGET PARSON,
WAS THREATENED WITH VIOLATIONS DURING AN IMPROMPTU
HEARING OF THE FIRST AMENDMENT AND THREATENED TO
LOOSE HER FREEDOM ALONG WITH HER FREEDOM OF SPEECH
BY ILLEGALLY CALLING THE “CSO” OFFICERS TO THE COURT
ROOM TO ILLEGALLY DETAIN AND TO “ILLEGALLY” MUFFLE
THE APPELLANT, BRIDGET BROWN PARSON, AKA BRIDGET
PARSON. APPELLEE, JUDGE HARLIN HALE CONTINUED TO ACT

dvwCLirtfoi^
IN DUAL ROLES AS THE JUDGE AND PROSECUTING ATTORNEY
AS WELL AS THE JURY THROUGHOUT THE IMPARTIAL
IMPROMPTU HEARING IN WHICH HE CONTINUED TO ENGAGE
WITH THE OTHER APPELLEES, U S BANK, SELECT PORTFOLIO
SERVICING, MACKIE WOLF LAW FIRM, ATTORNEYS WU, HOLT,
AND SCHNEIDER TO OBSTRUCT JUSTICE AND TO DISALLOW
FAIR AND EQUAL JUSTICE IN A PLOY TO STEAL THE REAL
PROPERTY BELONGING TO THE APPELLANT, BRIDGET BROWN
PARSON, AKA BRIDGET PARSON.
11.APPELLEES, U S BANK, SELECT PORTFOLIO SERVICING, MACKIE
WOLF LAW FIRM AND ATTORNEYS WU, HOLT, AND SCHNEIDER
HAVE MADE ILLEGAL WRITE OFFS WITH THE IRS AND HAVE
CONTINUED TO APPEAR IN THE BANKRUPTCY COURT AGAINST
THE APPELLANT, BRIDGET BROWN PARSON, AKA BRIDGET
PARSON, IN MAKE FALSE STATEMENTS WITHIN THE
BANKRUPTCY COURT AS TO HOW MUCH MONEY IS OWED THAT
CONTRADICTS FROM THE ILLEGAL “BOGUS” LETTER
SUBMITTED IN EVIDENCE DATED DECEMBER 14, 2014 THAT
HAVE CONTINUED TO GO TO MULTIFARIOS COURTS AND
ATTORNEYS.
APPELLANT, BRIDGET BROWN PARSON, AKA BRIDGET
PARSON,HAVE FILED A PETITION FOR REHEARING IN GOOD FAITH
TO BE HEARD AND NOT TO BE TOSSED OVER INSIDE OF A BASKET
OF NO RETURN. APPELLANT, BRIDGET BROWN PARSON, AKA
BRIDGET PARSON APPELLANT, BRIDGET BROWN PARSON, AKA
BRIDGET PARSON, PRAYS THAT HER PETITION FOR REHEARIJNG
IS GRANTED AND THAT THE UNOPPOSED MONETARY SANCTIONS
IN THE AMOUNT OF $4,350,000.00 IS GRANTED ALONG WITH THE
EXPUNGEMENT OF HER MORTGAGE DEBT DUE TO THE FACT THAT
THERE IS A DEFAULT JUDGEMENT IN WHICH NO RESPONSE
AND/OR OPPOSED RESPONSIVE PLEADINGS WERE ACCEPTED IN
THIS CASE. APPELLANT, BRIDGET BROWN PARSON, AKA BRIDGET
PARSON, PRAYS THAT HER MOTION FOR REHEARING IS GRANTED
IN THE INTEREST OF JUSTICE, EQUITY, DUE PROCESS OF LAW,
PROCEDURAL DUE PROCESS OF LAW, SUBSTANTIVE DUE PROCESS
OF LAW, AND THE PREVENTION OF MANIFEST INJUSTICE.

RESPECTFULLY .SUBMITTED,

BRIDGET BROWN PARSON
AKA
BRIDGET PARSON
508 GRADY LANE
CEDAR HILL TEXAS
75104
214 962-9508
CERTIFICATE OF SERVICE
1, APPELLANT, PLAINTIFF, BRIDGET BROWN PARSON, AKA
BRIDGET PARSON DO HEREBY DECLARE THAT A TRUE COPY WAS
SENT OF THE FOREGOING PETITION FOR WRIT OF CERITORARI TO
ALL OF THE PARTIES OF RECORD. JUDGE HARL1N HALE LOCATED AT
THE BANKRUPTCY COURT #2 LOCATED AT 600 COMMERCE STREET
DALLAS TEXAS 75202; ATTORNEY MIKE CONNER LOCATED AT 600
COMMERCE STREET DALLAS, TEXAS 75202; MACKJE WOLF LAW FIRM
ATTORNEYS STEPHEN WU, JESSICA HOLT, CHELSEA SCHNEIDER, ALL
LOCATED AT 14160 DALLAS, PKWY DALLAS TEXAS 75254 SENT BY
CERTIFIED MAIL AND/OR BY FAX # 214 635-2686 ON MAY 30, 2021.

BRIDGET PARSON
AKA
BRIDGET BROWN PARSON

Mackie Wolf Zientz & Mann, P. C. r^tAA/f/a'
Attorneys at Law
Phone (2 M) 635-2650 Fax (214)635-2686

Parkway office Cf.ntf.r. suite 900
14160 North Dallas Parkway
Dallas, Tlxas 75254

* J^T/
i
.
£ 'fi4"0\Q'C

Union plaza
124 wnsTCArim. Suite 1560
1.ITTI.P ROCK, ARKANSAS 7220J

• Rt.EASE KtSfOUD TO DALLAS OFFICE

December 23, 2014
BRIDGET PARSON
S08 GRADY LANE
CEDAR HILL, TX 75104
RE;

SELECT PORTFOLIO SERVICING INC.
0015070311
Loan No.:
Current BorTower(s):BR]DGET PARSON
Property Address: 508 GRADY LANE, CEDAR HILL, TX 75104
14-000362-850
File No:

i

a
X

5

3S

Fd

JS

P
m

3

ZD
7s

9

**

SO
O

Os

CO

Dear BRIDGET PARSON:
Per our client's instructions, the above referenced matter has been removed from the 01/06/2015
foreclosure sale. Our file is closed.
If you have any questions, please do not hesitate to contact our office.
Sincerely,

.L

<\
Mackie Wolf iientz& Mann, P. C.
Pursuant to the Federal Fair Debl Collection Practices Act, we advise you
that this firm is a debt collector attempting to collect the debt referred to
above and any information wc obtain from you will be used for that purpose.

✓

NITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
600 SOUTH MATRIX PLACE
NEW ORLEANS, LOUISIANA

BRIDGET BROWN PARSON

CASE NO. 19:10277

APPELLENT
VS.
SF.I FCT PORTFOLIO SERVICING
U S BANK
JUDGE HARL1N HALE
BANKRUPTCY COURT #2
MACKJE WOLF LAW FIRM
STEPHEN WU.
CHELSEA SCHNEIDER
JESSICA HOLT
APPELLEES

m

APPELLANT. BRIDGET BROWN PARSON. AKA BRIDGET
PARSON FILES IN GOOD FAITH HER MOTION’S FOR^T^/ t

,o oz&A'fo

T

n of/Ut

Wfn crrCeriiotwr/.

1) CLARIFICATON OF THE OPINION DATED OCTOBER 27. 2020
THAT SHE OBJECTS TO AND SEEKS A CLARIFICATION OF AN
UNOPPOSED “SUFFICIENT AND TIMELY APPEAL FILED IN
GOOD FAITH ON JULY 09. 2019.
2) DENI AL OF THE “ISP. AND/OR AFFIDAVIT OF INABILITY TO
PAY COSTS.
3) DENIAL OF THIS OPHNION AND/ORCASE BEING PUBLISHED.
THE OPINION AND/OR CASE SHOULD BE PUBLISHED AND THE
MERITS OF THIS CASE HEARD. APPELLANT. BRIDGET
PARSON FILES THIS MOT1N FOR CLARIFICATION DUE TO:

MOTION FOR CLARIFICATION IS FILED IN GOOD FAITH
OBJECTING TO:
1) OBJECTING TO THE OPINION DATED OCTOBER 27. 2020 FROM A_
PANEL HEARING OF 3 JUSTICES WHO NEVER HEARD THE
MERITS OF THIS "UNOPPOSED” “SUFFICIENTLY” FILED APPEAL
2) OBJECTION OF PANEL HEARING OF THREE JUSTICES RATHER,
THAN AN EN BANC HEARING IN WHICH EXHIBITS ARE
ATTACHED.
3) OBJECTIONS OF A PANEL HEARING THAT DENIED
SIMULTANEOUSLY AN UNOPPOSED “ISP” AND AN “UNOPPOSED”
“SUFFICIENT” AND “TIMELY” FILED APPEAL FILED ON JULY 09,
2019.
4) REASON OR REASONS ARE REQUESTED FOR THE “UNOPPOSED”
“UNHEARD” SUFFICIENT APPEAL WITHOUT HONORING THE
REQUESTED ORAL ARGUMENT “PRIOR” TO AN OPINION THAT
VIOLATES DUE PROCESS OF LAVA PROCEDURAL DUE PROCESS
OF LAW. THAT WAS ARBITRARILY AND CAPRICIOUSLY DONE IN
WHICH THE REASON GIVEN DOES NOT SUPPORT THE EVIDENCE
IN THIS “UNOPPOSED” CASE IN WHICH THE RELIEF REOUIESTED
OF $4.350.000.00 WAS ALSO UNOPPOSED. BY THE APPELLEES.
5) THERE IS A “PENDING” JUDICIAL MISCONDUCT OF THE JUDGE
HARLIN HALE WHO STOOD OVER A COURT REPORTER AND
STATED “STOP THAT TYPING” AFTER LEAVING THE BENCH
DURING A HEARING HELD IN WHICH THERE HAD BEEN EX
PARTE COMMUNICATIONS AND THE “TAPE” OF THE INCIDENCE
HAVE NOT BEEN HEARD BY THE JUSTICES THAT “SHOWS” NOT
ONLY JUDICIAL MISCONPUCT BUT CIVIL AND ALSO CRIMINAL
CONSPIRACY. THERE IS EVIDENCE IN THIS CASE IN WHICH THE
PENDING JUDICIAL MISCONDUCT HAVE NOT BEEN HEARD. THE
APPELLEE. JUDGE HARLIN HALE. BANKRUPTCY COURT #2
JUDGE. IS ALSO FROM THE STATE OF LOUISIANA THAT
APPEARS TO BE PART REASON FOR THE DELAY FOR JUSTICE.
6) REASONS REQUESTED AND OBJECTIONS TO THE “UNHEARD”
OPINION THAT STATED “FRIVOLOUS” WHEN THERE IS
EVIDENCE TO SUPPORT THE “SUFFICIENT” APPEAL FILED IN A
TIMELY MANNER THAT HAVE BEEN JUDGES AND

MULTIFARIOUS COURTS WHO HAVE WRITTEN ORDERS
ATTACHED AS EXHIBITS SINCE THE “SUFFICIENT” APPEAL WAS
FILED ON JULY 09. 2019.
7) OBJECTIONS TO THE “UNOPPOSED” DENIAL OF THE ISP IN
WHICH THERE HAVE BEEN MULTIPLE COURTS WHO HAVE
RECEIVED THE SAME AFFIDAVIT OF INABILITY TO PAY COST
AND HAVE APPROVED THE “EXACT” WORD FOR WORD “ISP.”
8) OBJECTIONS TO THE “UNOPPOSED” “SUFFICIENT* APPEAL FILED
ON JULY 09. 2019 THAT DISALLOWS FAIR AND EQUAL JUSTICE,
DISALLOWS AN UNOPPOSED “SUFFICIENT” APPEAL TO BE
GRANTED IN THE INTEREST OF JUSTICE. EQUITY. DUE PROCESS
OF LAW. PROCEDURAL DUE PROCESS OF LAW. AND WITHOUT
AN IMMEDIATE COURT INTERVENTION MANIFEST INJUSTICE
WILL CONTINUE TO OCCUR.
9) CLARIFICATION OF THE DECISION TO NOT PUBLISH THIS
“SUFFCIENT” APPEAL THAT RELATES TO MANY BLACK
AMERICANS. BANKS. PEOPLE OF ALL COLORS WHO HAVE
MORTGAGES WITHIN THE UNITED STATES AND OTHER PARTS
OF THE WORLD. THE OBJECTED TO APPEARANCE TO
DISCRIMINATE AND VIOLATE THE CIVIL RIGHTS OF THE
APPELLANT. BRIDGET BROWN PARSON. AKA BRIDGET PARSON
WHO HAVE OBJECTED TO THE ACTIONS OF THE APPELLEES. U S
BANK. SELECT PORTFOLIO SERVICING. JUDGE HARLIN HALE.
BANKRUPTCY COURT 2. MACK IE WOLF LAW FIRM . STEPHEN
WU^CHELSEA SCHNEIDER. JESSICA HOLT. ETAL WHO HAVE
RECEIVED OBJECTED TO IMMUNITY. AND.OR SPECIAL
PRIVILEGES IN WHICH “NO” REQUIRED RESPONSE WAS SENT IN
TO THE COURT BUT YET AN ADVERSE DECISION WAS
DELIVERED THAT APPEARS TO BE ARBITRARILY AND
CAPRICIOUSLY DONE THAT CONTINUES TO ADVERSELY
AFFECT THE APPELLANT. BRIDGET BROWN PARSON. AKA
BRIDGET PARSON. THAT “SHOWS” HARASSMENT.
INTIMIDATION. THAT VIOLATES HER CIVIL RIGHTS THAT
SHOWS RACIAL AND GENDER DISCRIMINATION. CIVIL AND
CRIMINAL CONSPIRACY THAT CONTINUES TO PREJUDICE THE
APPELLANT. BRIDGET BROWN PARSON. AKA BRIDGET PARSON
BEFORE THIS COURT. NONE OF THE “REOUI RED”

PREREQUISITES WERE MET BY THE APPELLEES. IN WHICH THE
U S BANK. SELECT PORTFOLIO SERVICING. MACKIE WOLF LAW
FIRM. JUDGE HARLIN HALE. BANKRUPTCY COURT #2, ETAL
HAVE CHOSEN TO FILE A “SUFFICIENT” RESPONSE BUT YET ARE
BEING PROTECTED THROUGH IMMUNITY THAT HAS BEEN
OBJECTED TO IN WHICH THERE ARE RAMPANT VIOLATIONS IN
WHICH THE U S BANK. APPELLEE ALONG WITH THE SELECT
PORTFOLIO SERVICING HAVE FAILED TO FILE THETREQJJIREDT
ORIGINAL NOTE. NOR PRODUCE THE NOTE TO THE HOME
MORTGAGE BELONGING TO THE APPELLANT. BRIDGET BROWN
PARSON. AKA. BRIDGET PARSON. WHO RESIDES AT 508 GRADY
LANE CEDAR HILL, TEXAS 75104 FOR OVER THIRTY YEARS.
OBJECTIONS TO THE CONTINUOUS ACTIONS AND
10)
INACTIONS OF THE APPELLEES, U S BANK. SELECT PORTFOLIO
SERVICING WHO HAVE FAILED TO FILE AN OBJECTION TO THE
APPEAL AND WHO HAVE FAILED TO OBJECT TO THE MONETARY
SANCTIONS OF $4.350.000.00 THAT HAVE BEEN FILED IN MANY
COURTS IN THE LOWER DISTRICT COURT. THE FEDERAL
DISTRICT COURT IN WHICH THE ORDERS ATTACHED SHOWS
THAT THE APPELLEES. U S BANK. WITHOUT MENTIONING
SELECT PORTFOLIO SERVICING ARE CONTINUING TO FILE
'‘FRIVOLOUS” AND “FRAUDULENT” DOCUMENTS TO THE MANY
COURTS IN WHICH THERE IS A LETTER SENT IN AN EXHIBIY
FILED BY THE APPELLE U S BANK AND SELECT PORTFOLIO
SERVICING ATTORNEY LAW FIRM OF MACKIE WOLF LAW FIRM
THAT “FRAUDULENTLY” STATES ON DECEMBER 2014 THAT NO
MONIES WERE OWED TO THEM AND THAT THEY HAD CLOSED
ANY MONIES OWED TO THEM THAT FOLLOWED AN
INTENTIONAL TELEPHONE CALL IN DECEMBER 2014.THAT LED
TO THE APPELLANT. BRIDGET BROWN PARSON. AKA. BRIDGET
PARSON TO DRIVE IN HER CAR TO THE MACKIE WOLF LAW
FIRM AND TO REQUEST SOMETHING IN WRITING OF WHAT WAS
SAID ON THE TELEPHONE. THE APPELEE. U S BANK. SELECT
PORTFOLIO SERVICING WHO WAS REPRESENTED BY THE M
ACKIE WOLF LAW FIRM IN AN ATTACHED EXHIBIT WROTE THE
INTENTIONAL FALSE. FRAUDULENT DOCUMENT TH AT HAS LED
TO MANY COURTS. MANY ORDERS THAT ARE ATTACHED AS

EXHIBITS THAT SHOWS THAT THE “SUFFICIENT” APPEAL FILED
BY THE APPELLANT. BRIDGET BROWN PARSON. AKA BRIDGET
PARSON IS NOT “FRIVOLOUS” BUT IS FILED IN GOOD FAITH BY
HER AND THAT HER AMERICAN DREAM HOME DOES EXIST
THAT SHE BOUGHT WITH ITER EARNED SUCCESS AS A PUBLIC
SCHOOL TEACHER.
OBJECTIONS TO BEING DENIED AN “ISP” IN WHICH MANY
11)
COURTS HAVE APPROVED THE EXACT AFFIDAVIT OF INABILITY
TO PAY COST THAT IS AN APPEARANCE OF VIOLATING THE
CIVIL RIGHTS OF THE APPELLANT. BRIDGET BROWN PARSON
AKA BRIDGET PARSON. WHO HAVE FILED IN GOOD FAITH A
SUFFICIENT APPEAL BEFORE THE COURT AND THE FACT THAT
HER FINANCES ARE TEMPORARILY NOT WHERE THEY SHOULD
BE DUE TO THE EARLY DEATH OF HER SPOUSE IN WHICH SHE IS
NOW A WIDOW, THERE SHOULD NOT BE A DISCRIMINATION TO
THE FACT THAT SHE IS “POOR” AND OF COURSE BLACK AND
UNABLE TO PAY THE FEES IN THIS CASE. THE PREREQUISITES
WERE MET FOR AN “ISP” THAT VIOLATES THE CIVIL RIGHTS OF
THE APPELLANT. BRIDGET BROWN PARSON. AKA BRIDGET
PARSON.
1
TO THE HONORABLE JUSTICES IN THIS CASE
COMES NOW. APPELLANT. BRDGET BROWN PARSON. AKA
BRIDGET PARSON. HAVE FILED IN GOOD FAITH HER MOTION FOR
CLARIFICATION OF THE OPINION ON OCTOBER 29. 2020 IN A
TIMELY MANNER DUE TO THE FOREGOING REASONS ABOVEAPPELLANT. BRIDGET BROWN PARSON. AKA BRIDGET PARSON.
HAVE OBJECTED TO THE OPINION OF AN ADVERSE DECISION IN
WHICH THERE IS NO “RESPONSE” BY THE APPELLEES. IN WHICH
THE DECISION APPEARS TO BE ARBITRARILY MADE AND
CAPRICIOUSLY DONE THAT CONTINUES TO DISCRIMINATE
AGAINST THE APPELLANT. BRIDGET BROWN PARSON. AKA
BRIDGET PARSON. WHO HVE FOLLOWED THE PREREQUISITES AND
FILED AN UNOPPOSED “SUFFICIENT. TIMELY APPEAL IN THIS
MATTER. APPELLANT. BRIDGET BROWN PARSON. AKA BRIDGT
PARSON. PRAYS THAT HER MOTION FOR CLARIFICATION IS
GRANTED. THE “ISP” GRANTED. AND THE OPINION IS PUBLISHED

ON THE MERITS OF THIS CASE. APPELLANT. PRAYS THAT HER
“SUFFICIENTLY FILED APPEAL WILL BE HEARD ON THE MERITS IN
THE INTEREST OF JUSTICE. EQUITY. DUE PROCESS OF LAW.
PROCEDURAL DUE PROCESS OF LAW. AND THE PREVENTION OF
MANIFEST INJUSTICE.
RESPECTFULLY SUBMITTED,

BRIDGET BROWN PARSON
AKA
BRIDGET PARSON
508 GRADY LANE
CEDAR HILL. TEXAS 75 3 04
214 962-9508
CERTIFICATE OF SERVICE
I. BRIDGET BROWN PARSON. AKA BRIDGET PARSON SENDS THE.MOTION
FOR CLARIFICATION. DENIAL OF THE “ISP. AND OBJECTION TO THE
UNPUBLISHING OF THE OPINION IN WHICH THIS CASE SHOULD BE HEARD ON
THE MERITS ALONG WITH THE UNOPPOSED OBJECTIONS FILED IN GOOD FAITH
BY EMAIL ADDRESS: PRO SE@CA5.U S COURTS.GOV LOCATED AT THE U S Ct OF
APPEALS 600 Sth MATRIX PLACE NEW ORLEANS. LOU ISI ANA 70130. ALL PARTIES
IN THIS CASE WERE SENT A COPY OF THIS MOTION BY CERTIFIED MAIL AND/OR
FAX TO THE APPELLEES. JUDGE HARLIN HALE LOCATED AT 600 COMMERCE ST.
DALLAS TX, U S BANK, SELECT Portfolio SERVICING. ATTORNEYS. STEPHEN WU.
CHELSEA SCHNEIDER. JESSICA HOLT. MACK1E WOLF LAW FIRM LOCATED AT
14160 DALLAS PKWY DALLAS Tx 75254 AND FAX #214 635-2686 ON NOVEMBER
2Q2i

BRIDGET BROWN PARSON.
AKA
BRIDGET PARSON

vm

